TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                            Office of Inspections and Evaluations




                    Additional Oversight Could Improve the
                    Occupational Safety and Health Program



                                          March 3, 2011

                             Reference Number: 2011-IE-R002




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                    DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               March 3, 2011




 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                        R. David Holmgren
                              Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                     Final Inspection Report – Additional Oversight Could Improve the
                              Occupational Safety and Health Program (IE-10-015)

 This report presents the results of our inspection to determine if the Internal Revenue Service
 (IRS) provides its employees a place of employment that is free from safety hazards. This
 review focused on two issues: hazards involving walking and working surfaces which can cause
 slips, trips, and falls; and electrical safety.

 Synopsis
 The Occupational Safety and Health Act1 requires the head of each agency to “provide safe and
 healthful places and conditions of employment.” The IRS is committed to effectively
 administering the occupational safety and health program nationwide. To comply with
 applicable safety requirements, the IRS established policies and procedures, and instituted a
 system for its employees to report hazardous conditions, accidents, and illnesses.
 The IRS’s occupational safety and health program includes policies and guidelines, program
 evaluations, and systems designed to report and document injuries and illnesses, and track
 hazards in the workplace. The IRS also developed the Graphic Database Interface (GDI) system
 to document, track, and analyze safety inspections results. As evidenced by the decline in the
 number of accident and injury claims, the IRS has a proactive approach to minimize workplace
 hazards. However, the IRS’s occupational safety and health program can be improved by
 enhancing the capabilities of the GDI system and increasing oversight to ensure that safety
 inspections are completed timely and effectively.

 1
     Occupational Safety and Health Act of 1970, Pub. L. No. 91-596.
                        Additional Oversight Could Improve the
                                     Occupational
                              Safety and Health Program


In the course of this review, we found that the GDI system was not fully operational nor was it
being consistently used by IRS employees involved in the safety review process. Additionally,
there are no controls in place to ensure that safety inspections are completed effectively and
timely. Our inspections of a sample of 15 IRS facilities identified a number of safety hazards.

Recommendations
We recommend that the Chief, Agency-Wide Shared Services fully implement the GDI system or
employ a similar means to effectively collect and analyze safety inspection data. The Chief,
Agency-Wide Shared Services, should also increase management oversight to ensure that safety
inspections are completed timely and effectively.

Response
IRS management agreed with the recommendations. The Director, Real Estate and Facilities
Management, has begun to enhance the GDI system’s data reporting capabilities and implement
a plan to improve the use of the GDI. Furthermore, the Director will emphasize the importance
of completing inspections, and implement an action plan to oversee and manage the safety
inspection program. The planned corrective actions are reflected in detail in Management’s
complete response to the draft report, included in Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 927-7048 if you have questions or Kevin Riley,
Director, Inspections and Evaluations at (972) 249-8355.




                                                                                                  2
                               Additional Oversight Could Improve the Occupational
                                            Safety and Health Program




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Occupational Safety and Health Program Reduces Accidents
          in the Workplace ........................................................................................... Page 4
          Safety Inspections Data Collection and Management
          Needs Improvement ...................................................................................... Page 5
                    Recommendation 1:.......................................................... Page 6

          More Management Oversight of Safety Inspections is Required ................. Page 6
                    Recommendation 2:........................................................ Page 11

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 13
          Appendix III – Report Distribution List ....................................................... Page 14
          Appendix IV – Safety Inspection Checklist.................................................. Page 15
          Appendix V – Treasury Inspector General for Tax Administration
          Identified Instances of Slip, Trip, and Fall Hazards ..................................... Page 17
          Appendix VI – Management’s Response to the Draft Report ...................... Page 19
         Additional Oversight Could Improve the Occupational
                      Safety and Health Program




                    Abbreviations

C.F.R.        Code of Federal Regulations
ERC           Employee Resource Center
FY            Fiscal Year
GDI           Graphic Database Interface
IRM           Internal Revenue Manual
IRS           Internal Revenue Service
OSHA          Occupational Safety and Health Administration
REFM          Real Estate and Facilities Management
SHIMS         Safety and Health Information Management System
TIGTA         Treasury Inspector General for Tax Administration
                          Additional Oversight Could Improve the Occupational
                                       Safety and Health Program




                                          Background

Section 19(a)(1) of the Occupational Safety and Health Act1 requires the head of each agency to
“provide safe and healthful places and conditions of employment.” The Internal Revenue
Service (IRS) believes that the safety and health of employees, contractors, and the public are
important priorities. To comply with applicable safety, health, and environmental legal
requirements, the IRS established policies and procedures which are documented in the Internal
Revenue Manual (IRM) 1.14.5 and the Real Estate and Facilities Management Safety and
Environmental (REFM) Handbook.
The IRS is further committed to maintaining a management system that emphasizes continual
improvement in performance and to promoting employee education and involvement in the
Occupational Safety, Health and Environmental program. IRS employees use the Employee
Resource Center (ERC) to report hazardous conditions, accidents, injuries, and illnesses through
a toll-free 800 number or on the IRS website. Furthermore, the Safety and Health Information
Management System (SHIMS) is used to record safety incidents. SHIMS is a Department of the
Treasury-based electronic data management system. The main purpose of SHIMS is to
document occupational injuries and illnesses and allow for easy reporting and tracking of safety
incidents in a single web-based program.
The Director, REFM, reports to the Chief, Agency-Wide Shared Services and is responsible for
the management and administration of the IRS Occupational Safety and Health Program. To
effectively administer the safety program service-wide, the IRS groups its facilities into
14 territories, which are managed by Territory Managers. Field Safety Officers report to the
Territory Managers, and are responsible for implementing the occupational safety and health
programs in their servicing areas. Per IRM 1.14.5, the responsibilities of Safety Officers include,
but are not limited to:
     (1) Conducting periodic safety inspections;
     (2) Providing safety and health awareness and hazard prevention and control training;
     (3) Complying with safety and health recordkeeping and reporting requirements;
     (4) Conducting investigations of significant incidents and record findings and
         recommendations for corrective actions; and
     (5) Conducting injury and hazard analyses to identify job or facility hot spots, determine root
         causes, and recommend effective actions.


1
    Occupational Safety and Health Act of 1970, Pub. L. No. 91-596.
                                                                                               Page 1
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




This review focused on hazards related to walking and working surfaces that can result in slips,
trips, and falls, and electrical safety2 at IRS selected facilities. According to the Fiscal
Year (FY) 2009 IRS Occupational Safety and Health Report, slips, trips, and falls were the
leading cause of injuries. As documented in Figure 1, approximately 42 percent of incidents
reported during FY 2009 involved slips, trips, and falls.
             Figure 1: Distribution of Incidents Reported during FY 2009

                     Cause of Incidents                   Count             Percentage of
                                                                            Total Incidents

             Slips, Trips or Falls                                 978                       42%

             Incident Unclassified                                 443                       19%

             Equipment/Materials Handling                          400                       17%

             Automobiles                                           142                       6%

             Blank                                                 111                       5%

             Impact with Fixed Object                               67                       3%

             All Other Categories                                  191                       8%
             Source: Treasury Inspector General for Tax Administration (TIGTA) analysis of
             information obtained from the SHIMS.

Electricity is also widely recognized as a serious workplace hazard, exposing employees to
electric shock, burns, fires, and explosions. According to the Bureau of Labor Statistics,
192 employees were fatally injured or killed by contact with an electrical current in 2008.
This review was performed at the IRS National Headquarters in Washington, D.C., in the Office
of the Director, REFM; and at the following field locations:
    •   Andover, Massachusetts Campus;
    •   Austin, Texas Campus and Field Office;
    •   Baltimore, Maryland Field Office;
    •   Chamblee, Georgia Campus and Field Office;
    •   Dallas, Texas Field Office;
    •   Farmers Branch, Texas Field Office;

2
 Electrical safety standards are set by the Occupational Safety and Health Administration under the
authority of 29 C.F.R. 1910 Subpart S. C.F.R. is the codification of the general and permanent rules
published in the Federal Register by the executive departments and agencies of the Federal Government.
                                                                                                   Page 2
                      Additional Oversight Could Improve the Occupational
                                   Safety and Health Program




   •   Lanham, Maryland Field Office;
   •   Lowell, Massachusetts Field Office;
   •   Oakland, California Field Office;
   •   Philadelphia, Pennsylvania Campus and Field Office; and
   •   Seattle, Washington Field Office.
The review was conducted during the period of May 2010 through October 2010. We conducted
this inspection in accordance with the Council of the Inspectors General for Integrity and
Efficiency Quality Standards for Inspections. Detailed information on our inspection objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 3
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




                                     Results of Review

The Occupational Safety and Health Program Reduces Accidents in
the Workplace
One of the guiding principles of the IRS Occupational Safety and Health Program is to prevent
injuries, illnesses, and accidents involving IRS employees, contractors or visitors to IRS
facilities. This program includes established policies and guidelines; program evaluations; and
systems designed to report and document injuries and illnesses, and track hazards in the
workplace. The program has helped the IRS improve worksite safety, as evidenced by the
decline in the number of accidents and injuries reported at IRS facilities, especially accidents
caused by slips, trips, and falls. Figure 2 documents the decline in reported accidents and
injuries from FY 2008 through FY 2009.
           Figure 2: Decline in Reported Worksite Accidents and Injuries
                           from FY 2008 through FY 2009

                                      FY 2008    FY 2009      Difference from   Percentage
                                       Count      Count       FY 2008 to 2009   of Change

            Total Incidents              2,525       2,332           -193         -7.6%

            Incidents Caused by
                                         1,068        978            -90          -8.4%
            Slips, Trips, or Falls
            Source: TIGTA analysis of information obtained from the SHIMS.

Safety policies and procedures are well defined
In addition to following the safety guidelines and regulations provided by the Occupational
Safety and Health Administration (OSHA) in the Department of Labor, the IRS has established
specific safety policies and procedures that are outlined in the IRM. The IRM clearly defines
program and stakeholder roles and responsibilities, and establishes policy for dealing with safety
issues. Furthermore, the REFM Office published the “Safety and Environmental Handbook” as
a resource for safety officers, managers, and all IRS employees. During our field visits, the
safety officers that we interviewed cited this handbook as their desk reference, along with
regulations and guidelines from OSHA and the IRM.
Safety program is certified annually
The IRS assesses and certifies the overall effectiveness of its safety program annually and
submits annual certification reports to the Department of Labor through the Secretary of the
Treasury. We reviewed the IRS annual occupational safety and health program reports for

                                                                                             Page 4
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




FYs 2008 and 2009 and found that the reports included a summary of the IRS’s self-evaluation
findings and described the agency's occupational safety and health program for the previous FY,
and the objectives for the current FY, as required by 29 Code of Federal Regulations
(C.F.R.) Section 1960.78(b).
Injuries and illnesses are documented and reported
OSHA regulations specify that Federal agencies record and report work-related fatalities,
injuries, and illnesses on the OSHA 300, Log of Work-Related Injury and Illness. Injury and
illness records are an important source of information that is used to identify hazards in the
workplace and direct IRS efforts in reducing workplace injuries. During our inspections, we
examined the logs for Calendar Years 2008 and 2009 to obtain assurance that the IRS prepares a
separate log for each facility and maintains those logs on the SHIMS database.
Tracking and correcting hazards
IRS employees use the ERC to report hazardous conditions, accidents, injuries, and illnesses
through a toll-free 800 number or on the IRS website. The ERC provides a system designed to
ensure that hazards reported by any means (i.e., self-inspections, accident investigations,
employee hazard reports, preventive maintenance, injury/illness trends) are assigned to the
respective safety officers for corrective actions.

Safety Inspections Data Collection and Management Needs
Improvement
The IRM requires semiannual safety inspections of all facilities to identify and correct worksite
hazards, such as spills, damaged flooring materials, debris on the floor, and protruding
equipment in walkways. Safety officers are responsible for ensuring that all areas of the facility
are inspected in a timely manner.
IRS employees volunteer as collateral duty safety inspectors and conduct the inspections using
checklists that are tailored to the types of hazardous conditions that are most likely to be
encountered in a specific work environment (e.g., office, warehouse, computer room, etc.).
Generally, one safety inspector is responsible for a specific section of the facility, and each
facility can have numerous safety inspectors. Safety inspectors must document the results of
each inspection on the checklists and forward the checklists to the safety officer assigned to the
facility.
If a safety inspector identifies hazards during the inspection that cannot be resolved immediately,
the inspector will document the hazards in the ERC. Once the information is posted to the ERC,
the safety officer can use the information to monitor the status of corrective actions and ensure
that hazards are addressed in a timely manner. However, if the hazards identified during the
inspections are corrected immediately, the safety inspector will not record the information in the
ERC.

                                                                                             Page 5
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




We conducted reviews at 15 IRS facilities to determine whether safety inspectors completed
inspections in all sections of the facilities as required. We found that IRS safety inspectors did
not complete the required inspections at five of the 15 locations we visited. At one location, we
estimated that 75 inspections should have been completed during the period of January 1, 2008,
through June 30, 2010, but we found that only five were conducted.
In 2008, the REFM Office developed the Graphic Data Interface (GDI) system to capture the
results of safety inspections, and enable management, employee representatives, and safety
officers to document and monitor potential hazards. However, the GDI system was not fully
operational as of May 2010, and the safety officers we interviewed told us they did not attempt to
record the results of inspections in the GDI because of limitations within the system.
REFM officials reported they were aware of the problems related to the GDI and noted that
several improvement actions are in place. In early 2010, REFM created a GDI Focus Group to
improve the GDI system, and provided GDI training for field safety officers and National
Headquarters staff. REFM plans to continue the system enhancement and training efforts.

Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should fully implement the
GDI system or employ a similar means to effectively collect and analyze the safety inspections
data.
       Management’s Response: IRS management agreed with the recommendation. Four
       GDI reports went into production in January 2011. A comprehensive report to evaluate
       trends and track the completion of inspections will be developed, and a plan to improve
       the use of the GDI, including training on the new reporting functions is under way.

More Management Oversight of Safety Inspections is Required
We conducted safety inspections at 15 IRS facilities using checklists similar to those used by
IRS safety inspectors. Our inspections focused on hazards related to walking and working
surfaces that can result in slips, trips, and falls, and issues with electrical safety.
Slip, trip, and fall hazards
Walking and working surface defects and associated problems result in slips, trips, and falls
which are the leading cause of office accidents resulting in injuries. Our inspections of
15 facilities revealed 83 safety hazards that could cause employees to slip, trip, or fall. At two
locations we did not identify any hazards. However, we identified numerous hazards at other
locations, which we did not expect, considering the fact that IRS safety inspectors conduct
similar inspections twice a year. Figure 3 documents the total number of safety hazards
identified at each location inspected.

                                                                                              Page 6
                                        Additional Oversight Could Improve the Occupational
                                                     Safety and Health Program




             Figure 3: Identified Instances of Slip, Trip, and Fall Hazards

                                   20

                                   18

                                   16
               Number of Hazards




                                   14

                                   12

                                   10

                                   8

                                   6

                                   4

                                   2

                                   0
                                         1   2   3   4   5   6   7   8   9   10   11   12   13   14   15
                                                             Location Number

            Source: Results from TIGTA Safety Inspections.

The most common hazards we identified related to the following:
   •   Obstacles or obstructions in passageways (approximately 27 percent of the hazards);
   •   Defects and holes in floor coverings (approximately 17 percent of the hazards);
   •   Obstructions and hazards on exterior walking surfaces (approximately 16 percent of
       hazards); and
   •   Loose tiles or exposed wiring in computer rooms (approximately 13 percent of hazards).
Appendix V documents all of the safety hazards we identified related to walking and working
surfaces by location and type of hazard. At some locations, certain types of hazards were more
prominent than others. For example, in Austin and Dallas, TIGTA found that not all exits or
routes to exits readily indicate the direction of escape (Appendix IV question 7). In Austin,
Dallas, Baltimore, and Memphis, we noted that floors, aisles and passageways are not kept clear
of obstacles/obstructions (Appendix IV question 40).
Instances of slip, trip, and fall hazards are photographically illustrated in Figures 4 through 8.



                                                                                                           Page 7
                Additional Oversight Could Improve the Occupational
                             Safety and Health Program




             Figure 4: Examples of Exterior Tripping Hazards
Cracked/Uneven Walkways and Parking




Source: TIGTA Safety Inspections.


              Figure 5: Examples of Interior Tripping Hazards
Protruding Objects on Floor




Source: TIGTA Safety Inspections.


   Figure 6: Examples of Tripping Hazards in Non-Office Facilities
Obstacles and Holes on Floor




Source: TIGTA Safety Inspections.




                                                                      Page 8
                          Additional Oversight Could Improve the Occupational
                                       Safety and Health Program




                        Figure 7: Examples of Egress and Exit Hazards
          Blocked Aisle/Egress/Door




          Source: TIGTA Safety Inspections.


                       Figure 8: Examples of Stairs and Ramps Hazards
          Deteriorating Nose on Stairs, Debris on Ramp, Lack of Barrier/Rail




          Source: TIGTA Safety Inspections.

Electrical hazards
Electricity is the most common cause of fires in both the home and the workplace. The
use/misuse of power cords accounts for many of the OSHA citations issued each year.
According to OSHA standards, flexible cords and cables (such as, surge protectors or extension
cords) should be plugged directly into an approved receptacle outlet.3 This prohibits the practice
of interconnecting two or more surge protectors to supply power (referred to as a “piggy-back”),
and interconnecting an extension cord with a surge protector. Such connections can draw too
much current, and electric equipment or the cords can overheat, which can result in fires and
electric shock. OSHA standards also prohibit the use of extension cords as a substitute for fixed
wiring.4 Similarly, exposed wiring and conduits can easily create an electrical hazard.
At 13 of 15 facilities inspected we found piggy-backed surge protectors, extension cords used as
fixed wiring, and exposed wiring. Hazards related to piggy-backed surge protectors were
especially problematic at two older IRS facilities, which were not designed or modernized to
accommodate the large number of outlets required for task lighting, computers, printers and

3
    29 C.F.R. 1910.305(g)(1)(iii).
4
    29 C.F.R. 1910.305(g)(1)(iv)(A).
                                                                                           Page 9
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




other electronic devices. TIGTA inspectors reported there were too many piggy-backed surge
protectors to count at the two older facilities. However, the magnitude of this problem varied at
the other 13 facilities we inspected, as documented in Figure 9.
              Figure 9: Electrical Hazards Identified During Inspections

                         Number of Hazards                      Number of Facilities

                     Too Many Hazards to Count                       2 Facilities

                           40 to 64 Hazards                          3 Facilities

                            1 to 13 Hazards                          8 Facilities

                              No Hazards                             2 Facilities
               Source: Results from TIGTA Safety Inspections.

Examples of electrical hazards identified during our inspections are photographically illustrated
in Figure 10.
                         Figure 10: Examples of Electrical Hazards
       Piggy-Backing, Temporary and Exposed Wiring




       Source: TIGTA Safety Inspections.
Unapproved personally-owned appliances
Personally-owned appliances (such as refrigerators, micro wave ovens, toasters and space
heaters) in the workplace are prohibited, unless the appliance is inspected and approved by the
building manager. Inspection and approval of appliances is intended to reduce the risk of
                                                                                          Page 10
                       Additional Oversight Could Improve the Occupational
                                    Safety and Health Program




electrical shock or fire. We identified personally-owned appliances that were not approved by
building management at 12 of the 15 facilities we inspected. At one facility, we identified
179 unapproved appliances. At three other facilities the inspectors reported that the number of
unapproved appliances was too large to count. Some appliances are located in individual
workspaces, while others are placed in make-shift break areas despite the existence of designated
break rooms. Figure 11 provides examples of unapproved personally-owned appliances
identified during our review.
        Figure 11: Examples of Unapproved Personally-Owned Appliances
       Personally-Owned Appliances in Make-Shift Break Areas and Offices




       Source: TIGTA Safety Inspections.

We identified a relatively high number of safety hazards, many of which IRS safety inspectors
and officers should have identified during previous inspections. We also found that inspections
in some locations were not completed as required. Based on our findings, we believe the IRS’s
oversight of the safety inspection process needs to be improved.

Recommendation
Recommendation 2: The Chief, Agency-Wide Shared Services, should increase management
oversight to ensure the safety inspections are completed timely and effectively.
       Management’s Response: IRS management agreed with the recommendation. The
       Director, REFM, will: 1) assign a staff person to ensure inspections are completed timely
       and entered into the GDI system; 2) emphasize the importance of completing biannual
       inspections in all areas; and 3) develop and implement an action plan for oversight and
       management of the safety inspection program. In addition, National Headquarters staff
       will monitor completion of safety inspections and offer support to territories where
       needed.




                                                                                         Page 11
                      Additional Oversight Could Improve the Occupational
                                   Safety and Health Program




                                                                                   Appendix I

        Detailed Objective, Scope, and Methodology

Our overall objective was to determine if the IRS provides its employees a place of employment
which is free from safety hazards. To accomplish this objective we:

I.     Determined whether the IRS has procedures in place to effectively reduce the risk of
       accidents in the workplace.
       A. Interviewed key responsible individuals in the REFM Office.
       B. Reviewed workplace safety requirements, primarily as they relate to slips, trips, and
          falls, and electrical hazards.
II.    Assessed safety compliance efforts at IRS locations selected for review.
       A. Determined whether all incidents are systematically reported and tracked.
       B. Reviewed the safety officer inspection reports for a judgmental sample of IRS
          locations to determine whether inspections were completed timely and effectively.
       C. Reviewed 2008 and 2009 annual OSHA 300 reports and Occupational Safety and
          Health reports to determine the IRS’s overall status of compliance with Federal
          workplace safety requirements.
       D. Reviewed the 2008 and 2009 IRS semiannual inspection reports to determine the
          IRS’s overall status of compliance with Federal workplace safety requirements.
III.   Developed an inspection checklist (see Appendix IV) and conducted inspections at
       15 IRS facilities to assess the IRS’s workplace safety. The selected facilities covered
       campus and non-campus locations service-wide.




                                                                                          Page 12
                     Additional Oversight Could Improve the Occupational
                                  Safety and Health Program




                                                                  Appendix II

                Major Contributors to This Report

Kevin P. Riley, Director
James A. Douglas, Supervisory Evaluator
Stanley Rinehart, Supervisory Evaluator
Mark Anderson, Program Analyst
David Brown, Program Analyst
Roy Burton, Program Analyst
Dolores Castoro, Senior Auditor
John DaCruz, Program Analyst
Frederick Ephraim, Program Analyst
Kyle Huggins, Student Trainee
Jacqueline Nguyen, Senior Auditor




                                                                           Page 13
                    Additional Oversight Could Improve the Occupational
                                 Safety and Health Program




                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Assistant Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Director, Real Estate and Facilities Management OS:A:RE
Director, Workforce Progression and Management OS:HC:WRT
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison:
       Chief, Agency-Wide Shared Services OS:A




                                                                          Page 14
                      Additional Oversight Could Improve the Occupational
                                   Safety and Health Program




                                                                                    Appendix IV

                       Safety Inspection Checklist

 No.                                                Safety Item
1      Did the IRS provide safety reports for the period from 1/1/2008 - 6/30/2010?
2      Did the IRS provide the most recent OSHA 300 Log?
AISLE/EGRESS/EXIT
       Is there safe clearance where mechanical handling equipment is used for aisles and passage
3
       ways, loading docks, through doorways and wherever turns or passage must be made?
4      Are changes of direction or elevation readily identifiable?
       Is every open-sided floor or platform
5      4 feet or more above adjacent floor or ground level guarded by a standard railing except
       where there is an entrance ramp, stairway or fixed ladder?
6      Are exits and stairways clear of anything that could interfere with egress?
7      Do all exits or routes to exits readily indicate the direction of escape?
8      Are exit doors free of decorations or signs that obscure the visibility of the exit door?
       Are all doorways not constituting an exit or way to reach an exit, but may look like an exit,
9
       marked as “NO EXIT” with letters at least 2 inches in height to minimize confusion?
10     Do all exterior building doors swing to the outside if more than 50 people are in that area?
1l     Are absorbent walk-off mats or strips installed at all entrances?
WALKWAY/EXTERIOR
       Do exterior walkways have (4 ft. or more above floor or ground level) guardrails on the
12
       unenclosed sides?
       Are exterior walking surfaces free of obstructions and hazards such as cracks or holes more
13
       than a ½ inch in height?
14     Is walkway free of standing water?
       Is there safe clearance for walkways where motorized or mechanical handling equipment is
15
       present?
16     Are changes of direction or elevation readily identifiable or negotiable by stairs or a ramp?
STAIRWAYS/RAMPS
17     Are handrails provided on stairways and ramps?
18     Do the handrails begin before the first descent or ascent begins?
19     Are handrails continuous onto landing areas?
20     Are the risers on the steps evenly spaced?
21     Do the steps have a non-slip surface?
22     Are posters or notices posted in stairways that could distract an individual’s attention?
23     Is the stairway free of obstructions and debris?
24     Does the ramp(s) have a non-slip surface?
25     Does the ramp have a level top and bottom landing?
26     Are handrails provided on the ramps?
       Is the stairway free of hidden steps, especially when coming around a corner or through a
27
       door?
PARKING


                                                                                             Page 15
                      Additional Oversight Could Improve the Occupational
                                   Safety and Health Program




 No.                                                Safety Item
       Is the parking surface smooth and free of obstruction, such as large cracks in pavement,
28
       broken equipment, damaged parking curbs, or speed bumps?
29     Is the landscaping maintained so it does not obstruct views causing a safety hazard?
ELEVATOR
30     Are landing doors closed when the elevator is not at that landing?
31     Do the doors retract when an object is placed between closing doors?
32     Did the elevator stop level to the landing?
33     Is the floor in the elevator well maintained and free of slipping hazards?
34     Is the elevator well lit so that passengers can view an unleveled floor easily?
       Is the area near the elevator free of objects such as plants or furniture, which could present a
35
       tripping hazard?
COMPUTER ROOM
       Is the area free of obstacles such as loose tiles or exposed wiring, which could present a
36
       tripping hazard?
37     Are there guardrails and walking ramps available for permitting equipment into the room?
OFFICE
38     Are floors and aisles clean and dry?
39     Are floor coverings (carpet, tile, wood) free from defect and holes?
40     Are floors, aisles and passageways kept clear of obstacles/obstructions?
FILE ROOM (CAMPUSES ONLY)
       Are aisle ways wide enough to permit free movement of employees bringing and removing
41
       material?
42     Is stacked material limited in height so as to be stable and secure?
       Are storage (files) areas kept free from accumulation of materials that may create hazards
43
       such as tripping?
MAIL ROOM
44     Is the area free of obstacles/materials that may create tripping hazards?
45     Is stacked material limited in height so as to be stable and secure?
46     Are mail/materials neatly stacked to permit free movement of employees processing them?
ELECTRICAL & FIRE SAFETY
       Are personally-owned appliances, such as coffee pots, toasters, microwave, and space
47     heaters, present in space other than designated break rooms, and were NOT approved by
       building management?
47.1   Note the number of unapproved appliances found in non-designated break rooms
       Are extension cords/surge protectors in the work space plugged directly to an outlet? (not
48
       linked to one another)
49     Is there 3 feet of space in front of fire extinguishers?
       Was each fire extinguisher inspected within the last year? (information should be located
50
       on a label or sticker)
51     If fire extinguishers are not present, is there a sprinkler system?




                                                                                                Page 16
                                     Additional Oversight Could Improve the Occupational
                                                  Safety and Health Program




                                                                                         Appendix V

         Treasury Inspector General for Tax Administration
         Identified Instances of Slip, Trip, and Fall Hazards

             Location Number          1   2   3   4   5   6   7   8   9   10   11   12   13   14     15   Total
Are changes of direction or
elevation readily identifiable?               1                                                              1
(Question 4)
Is every open-sided floor or
platform 4 feet or more above
adjacent floor or ground level                                                                1              1
guarded by a standard railing?
(Question 5)
Exits and stairways clear of
anything that could interfere                 2                                               2              4
with egress? (Question 6)
Do all exits or routes to exits
readily indicate the direction of             3           3   1                                              7
escape? (Question 7)
Are exit doors free of
decorations or signs that
                                                          1                                                  1
obscure the visibility of the exit
door? (Question 8)
Do exterior walkways (4 ft. or
more above floor or ground
level) have guardrails on the                                                                 1              1
unenclosed sides?
(Question 12)
Are exterior walking surfaces
free of obstructions and
hazards such as cracks or                 7   1   1   1       1   1                           1              13
holes more than a ½ inch in
height? (Question 13)
Is walkway free of standing
                                                              1                                              1
water? (Question 14)
Are changes of direction or
elevation readily identifiable or
                                                                                              1              1
negotiable by stairs or a ramp?
(Question 16)
Are handrails continuous onto
                                                                                              1              1
landing areas? (Question 19)
Do the steps have a non-slip
                                                                                              1              1
surface? (Question 21)
Is the stairway/ramp free of
obstructions and debris?                                          1                                          1
(Question 23)



                                                                                                   Page 17
                                   Additional Oversight Could Improve the Occupational
                                                Safety and Health Program




            Location Number         1   2   3    4   5   6    7   8   9    10   11   12   13   14     15   Total
Is the parking surface smooth
and free of obstruction?                         2            1   1                                           4
(Question 28)
Computer Room: Is the area
free of obstacles such as loose
                                                         2        2   2              3    2                   11
tiles or exposed wiring?
(Question 36)
Are floor coverings (carpet,
tile, wood) free from defect and        1   2        1   4                           1                5       14
holes? (Question 39)
Are floors, aisles and
passageways kept clear of
                                            2            8            9         3                             22
obstacles/obstructions?
(Question 40)
         Total For Each Location    0   8   11   2   2   18   4   5   11   0    3    4    2    8      5       83




                                                                                                    Page 18
       Additional Oversight Could Improve the Occupational
                    Safety and Health Program




                                                   Appendix VI

Management’s Response to the Draft Report




                                                             Page 19
Additional Oversight Could Improve the Occupational
             Safety and Health Program




                                                      Page 20
Additional Oversight Could Improve the Occupational
             Safety and Health Program




                                                      Page 21
Additional Oversight Could Improve the Occupational
             Safety and Health Program




                                                      Page 22
Additional Oversight Could Improve the Occupational
             Safety and Health Program




                                                      Page 23
